<html>
<title> - Race, Rights, and Politics: Black and Minority Populations in Europe</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




115th Congress                                                                    Printed for the use of the
2nd Session                                                  Commission on Security and Cooperation in Europe
_______________________________________________________________________________________________________________                                                       



                          
  Race, Rights, and Politics: Black and Minority Populations in Europe             









<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





                              SEPTEMBER 12, 2018




                               Briefing of the
               Commission on Security and Cooperation in Europe
__________________________________________________________________________________________
                                    Washington: 2018                                                






         Commission on Security and Cooperation in Europe
                  234 Ford House Office Building
                        Washington, DC 20515
                           202-225-1901
                        <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fe9d8d9d9bbe939f9792d096918b8d9bd0999188">[email&#160;protected]</a>
                        http://www.csce.gov
                          @HelsinkiComm
                                                          
                                                          
                                                          
                      Legislative Branch Commissioners
                     
                     

              HOUSE                                      SENATE
CHRISTOPHER H. SMITH, New Jersey              ROGER WICKER, Mississippi,
          Co-Chairman                         Chairman
ALCEE L. HASTINGS, Florida                    BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama                   JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas                     CORY GARDNER, Colorado
STEVE COHEN, Tennessee                        MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina                JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois                      THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas                     TOM UDALL, New Mexico
GWEN MOORE, Wisconsin                         SHELDON WHITEHOUSE, Rhode Island                     
          
         

                  Executive Branch Commissioners

                      DEPARTMENT OF STATE
	              DEPARTMENT OF DEFENSE
                      DEPARTMENT OF COMMERCE
                      
                      




ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE


    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe [OSCE]. The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.


ABOUT THE COMMISSION ON SECURITY AND COOPERATION IN EUROPE


    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.




                Race, Rights, and Politics: Black and

                  Minority Populations in Europe


                           September 12, 2018


                                                                              Page
                              PARTICIPANTS

    Hon. Gwen Moore, Commissioner, Commission for Security and 
Cooperation in Europe ..................................................... 5

    Dr. Mischa E. Thompson, Senior Policy Advisor, Commission for 
Security and Cooperation in Europe ........................................ 1

    Alfiaz Vaiya, Coordinator, European Parliament Anti-Racism and 
Diversity Intergroup (ARDI) ............................................... 2

    MP Olivio Kocsis-Cake, Hungary ........................................ 3

    MP Killion Munyama, Poland ............................................ 3

    MP Aminata Toure, Schleswig-Holstein, Germany ......................... 6

    MP Clive Lewis, United Kingdom ........................................ 7

    Nero Ughwujabo, Special Advisor to Prime Minister Theresa May, 
Social Justice, Young People & Opportunities, United Kingdom .............. 14


    Simon Woolley, Director, Operation Black Vote; Chair, Prime 
Minister's Race Disparity Advisory Group .................................. 17

    Jeff Klein, Public Policy Advisor, Each One Teach One ................. 20

    Ali Khan, Open Society Initiative for Europe .......................... 21


 
                     Race, Rights, and Politics: Black and

                      Minority Populations in Europe
                               ----------                              

                           September 12, 2018
                           

             Commission on Security and Cooperation in Europe
                           Washington, DC
                           


    The briefing was held at 10:03 a.m. in Room 2220, Rayburn House 
Office Building, Washington, DC, Dr. Mischa E. Thompson, Senior Policy 
Advisor, Commission for Security and Cooperation in Europe, presiding.
    Panelists present: Hon. Gwen Moore, Commissioner, Commission for 
Security and Cooperation in Europe; Dr. Mischa E. Thompson, Senior 
Policy Advisor, Commission for Security and Cooperation in Europe; 
Alfiaz Vaiya, Coordinator, European Parliament Anti-Racism and 
Diversity Intergroup (ARDI); MP Olivio Kocsis-Cake, Hungary; MP Killion 
Munyama, Poland; MP Aminata Toure, Schleswig-Holstein, Germany; MP 
Clive Lewis, United Kingdom; Nero Ughwujabo, Special Advisor to Prime 
Minister Theresa May, Social Justice, Young People & Opportunities, 
United Kingdom; Simon Woolley, Director, Operation Black Vote; Chair, 
Prime Minister's Race Disparity Advisory Group; Jeff Klein, Public 
Policy Advisor, Each One Teach One; and Ali Khan, Open Society 
Initiative for Europe.

    Dr. Thompson. Good morning. My name is Dr. Mischa Thompson. And 
welcome to ``Race, Rights, and Politics: Black and Minority Populations 
in Europe,'' a briefing hosted by the U.S. Commission on Security and 
Cooperation in Europe, also known as the Helsinki Commission. For those 
who may not know, the Helsinki Commission is an independent U.S. 
Government agency focused on human rights, economics, and security in 
the 57 North American and European countries that make up the 
Organization for Security and Cooperation in Europe. The commission is 
chaired by members of Congress, bicameral, bipartisan, and includes the 
executive branch.
    The OSCE has had a focus on diverse and vulnerable populations, 
from Roma and Jewish populations to national minorities and migrants, 
in Europe and the United States since its inception. Over the past 
decade, our commissioners have also focused on the situation of people 
of African descent in Europe, or black Europeans, from hearings in the 
U.S. Congress to resolutions in the OSCE Parliamentary Assembly. 
Central to those efforts has been raising awareness about Europe's long 
history and contribution of African descent populations. It is one 
reason several of our commissioners were recently supportive of the 
European Parliament's first-ever People of African Descent Week, held 
in Brussels in May.
    We are very thankful to be joined today by some of the organizers 
and participants of what was called PAD Week, as well as some of 
Europe's leading legislators and voices on democracy and human rights. 
You can find all of today's speakers' bios in the blue folders and 
online. And we actually have several panels today--after each panel 
there will be time for questions and discussion with both our in-house 
audience and our online audience. We are also able to take comments via 
Facebook and can be followed under the Twitter handle @HelsinkiComm--
so, Helsinki C-O-M-M. Please be certain to speak loudly into the 
microphone for our in-house audience as well as the persons on the 
panel.
    And with that, I will turn us over to Alfiaz Vaiya from the 
European Parliament, to lead our discussion today.
    Mr. Vaiya. Thank you very much, Mischa. And, first of all, thank 
you to the U.S. Helsinki Commission, to Dr. Mischa Thompson, and to 
Izmira for organizing today's briefing in Congress. We have an 
interesting panel of different policymakers from Europe who represent 
black and minority populations in Europe. We will try to split today's 
debate into three panels, the first panel being on the state of human 
civil rights in Europe, a second panel looking at ways forward and 
looking at the U.K. Race Disparity Audit with Prime Minister May's 
advisor on race issues, and then a final panel with representatives of 
civil society from Europe to talk about different policies and ways 
forward.
    So I don't want to take up too much time. The idea is to make it an 
interactive discussion rather than speeches. So I will introduce our 
first panel. To my right is Clive Lewis, who is a member of Parliament 
from the United Kingdom. To my nearest right is Olivio Kocsis, who is a 
member of Parliament in Hungary. To my left is Dr. Killion Munyama, 
who's a member of Parliament in Poland. And finally, I have Aminata 
Toure, who is a member of Parliament in the German regional Parliament.
    So we're going to have a little bit of a discussion on the issues 
in Europe. For those of you who aren't really familiar with what's 
going on in Europe, we seem to have had in the last few years a wave of 
different populist movements appearing in Europe--both left-wing and 
right-wing. And we see that all across Europe, these movements are 
breaking the traditional political center spectrum. And we're seeing 
these policies now actually have majorities becoming represented in 
Parliament, but also in governments. From Portugal, where you see left-
wing parties in a coalition government, to other countries, such as in 
Austria and Italy, where you see populist parties who are right-wing in 
government. And so we see the normalization of these populist parties 
in Europe. And that has an effect on black and minority populations in 
Europe.
    We will go a little bit away from black populations in Europe, 
because we have also speakers coming from countries where you have less 
of a black population. And we will broaden the discussion to minorities 
and refugees and asylum seekers. We also have a very good political 
balance in the first panel because we have members of Parliament who 
belong to the Christian Democrats, to Social Democrats, and to Greens. 
So I think we'll have a very interesting discussion.
    Maybe I can first come to Olivio. So we see--in Hungary, the 
Christian Democrat Fidesz Party is in government. We've seen regularly 
attacks on different fundamental and civil rights in Hungary, from 
freedom of press, from academic freedom, to judicial reforms and also 
issues around press freedom. But one of the main issues we see also in 
Hungary is a constant wave of populist messages targeting vulnerable 
communities--those who are migrant, asylum seekers, refugees, to 
Muslims, to LGBTI community, and others. So what is your perspective on 
what's happening in Hungary right now? And how do you see it playing 
out in the next couple of years?
    Mr. Kocsis-Cake. First of all, thank you for the introduction and 
thank you for inviting me to this event. In the first place, let me 
just describe the Hungary situation. My name is Olivio Kocsis-Cake, and 
I am the member of the Hungarian Parliament and party director of 
Dialogue for Hungary Party. It's a brand-new party. It was established 
in 2013. Dialogue is a progressive green party whose agenda focuses on 
social issues, social justice, ecology and sustainability. Hungary, due 
to its historical background, lack of colonial past, and geographical 
position--being landlocked in Central Europe--Hungary has very limited 
African origins or black citizens. I think the same in Poland. They 
number approximately a couple of thousands, most of them being 
descendants of exchange students who met their future wives or husbands 
during their study. I came from such a marriage. My father came from 
Guinea-Bissau and studied economics in Budapest when he first saw my 
mother.
    My personal background has always made me sensitive about minority 
and social issues and human rights, civil rights of my country. 
Solidarity is a key pillar of my own values and my party's political 
agenda. In Hungary, the minority facing the biggest social challenge is 
the Romas. Their situation in some respects resembled that of African 
Americans in the 1960s. In the legal and constitutional perspective the 
Roma are equal members of the Hungarian society, but the reality is 
very different. Their social status, coupled with brutal lack of 
opportunities, make their ordeals one of the biggest challenges and 
major responsibilities of any progressive political leader or political 
party. So briefly, this is the situation in Hungary.
    Mr. Vaiya. Thank you, Olivio.
    So maybe if I turn over to Dr. Killion Munyama. Olivio said that 
there are lot of similarities between Hungary and Poland. We see with 
the Law and Justice ruling party that a lot of the reforms that they're 
doing in Poland are very similar to the reforms we see Prime Minister 
Orban doing in Hungary. And we see that, the line of attack against, 
you know, vulnerable communities and minorities is also very similar to 
Hungary.
    Now, you're a politician from the Christian Democrat party, the 
Civic Platform. You were in government--your party was in government 
previously and has been challenging the current government on their 
reforms. How would you assess what's going on in Poland in regards to 
minorities?
    But also taking your own example--I mean, you're the only black 
member of Parliament in Poland. And you've done some work for the 
Council of Europe on improving representation of ethnic, religious, 
racial, and LGBTI minorities in Europe. So maybe you can talk a little 
bit about that as well.
    Thank you.
    Dr. Munyama. Thank you very much, Alfiaz, for the introduction. 
It's such an honor to be here to present our work within the Council of 
Europe, as well as my work in the Parliament of Poland. I've been a 
member of the Polish Parliament since 2011. This is my second term of 
office in the Parliament. Correctly, I'm the only black representative 
of the Polish Parliament, out of 460 members. Poland, as it has been 
mentioned by Olivio, it's very much similar to Hungary, in the sense 
that most of the black community there is based on former students who 
now work within Poland. They are professors, they are part and parcel 
of the health sector in Poland. And to be frank with you, we could say 
that most of us--[off-side conversation]. All right, yes.
    So what is happening today in Poland is that there is a situation 
whereby the leading--the ruling party, Law and Justice, actually has 
been introducing some of the legal aspects that are not very clear to 
most of the expectations of the country today. But of course, it's been 
challenged by the European Union and also the Council of Europe itself 
on violating some legal aspects that have been going on for the last 30 
years in the country. The country has been developing very well. It's 
still developing at the moment. And we can say that some of those legal 
changes that need to be changed are, of course, justified in some way. 
But they have to be conducted in a better way than it has been 
conducted so far.
    But on the political ground or in Poland, and the fact that 
minorities are actually somehow recognized, and it's not an issue at 
the--you know, that they are completely outspoken. We can say that at 
the moment, working--I mean, I've worked on a report in the Council of 
Europe that has been a resolution--Resolution 2222--on promoting 
diversity in politics. And this involves people of different minorities 
and sexual orientation. People of minority background such that in the 
resolutions we have come up with some very important conclusions. We 
say that there should be a change of mindset, deconstructing the 
stereotypes according to which origin and competencies are interlinked.
    We have put some recommendations to political parties in the 47 
member countries of the Council of Europe. And most of those 
recommendations are there to encourage the progression of people from 
diverse backgrounds within party structures. We have also emphasized 
the fact that political parties should introduce mentorship programs 
and ensure that their beneficiaries come from a variety of backgrounds. 
Also, we have indicated that political parties should look to support 
the creation of group-specific causes within their ranks, and also to 
ensure that equality across the board is mainstreamed in political 
programs and the public discourse of their leaders.
    So these are some of the recommendations that we have put in the 
resolution, which is from the Council of Europe. As I said earlier, 
it's a Council of Europe which consists of 47 member countries. Out of 
those, 28 are in the European Union and 19 are actually non-European 
Union members. So I'll go into details on some of the conclusions of 
the resolution in the latter stage.
    Thank you.
    Mr. Vaiya. Thank you very much, Killion. Before I go to the other 
two panelists, I want to introduce a good friend of ours and a very 
strong supporter of black and minority populations in Europe, 
Congresswoman Gwen Moore. Congresswoman Gwen Moore has been an active 
supporter of our work in improving political representation of black 
and minority populations in Europe, through sponsoring the 
Transatlantic Minority Political Leadership Conference, but also 
through the Helsinki Commission.
    Congresswoman Moore is a member of the Helsinki Commission, a whip 
of the Congressional Black Caucus, and an active member in various 
caucuses, including the Congressional Progressive Caucus, the LGBT 
Caucus, and others. Congresswoman Moore is also the ranking member on 
the Financial Services Committee. And I think that's why we have this 
room today as well. [Laughter.] So a big thank you to you, 
Congresswoman Moore. If I can give you the floor to say some words?
    Ms. Moore. I'm also late. [Laughter.] I was just listening to 
honorable Munyama give this amazing report. And I do have some 
questions. I don't want to really interrupt the flow of the panel. I 
just want to comment on how proud I am of this organization, and the 
deepening relationship that is developing between African American 
parliamentarians and our brothers and sisters across the pond. They 
want to thank Dr. Mischa Thompson from the Helsinki Commission, my 
fellow commissioners--Representative Hastings, Representative Sheila 
Jackson Lee--also our outstanding staff, Bob Hand, who--last time I saw 
you was over there, I don't ever know where you're going to be. And of 
course, my own Izmira Aitch, who herself was educated in Europe and 
came to appreciate the importance of these relationships. I think she 
is not going to let me get away with not making sure that you all are 
all recognized.
    I just want to say that this relationship is really deepening. And 
I'm really happy that these parliamentarians are going to participate 
in the Congressional Black Caucus conference this weekend and on 
various panels. They're going to participate--and if I'm repeating 
myself, Mischa, you're too far away to kick me. [Laughter.] They're 
going to be doing other work here--they're going to be in sessions with 
Representative Sheila Jackson Lee on her Judiciary Braintrust, and 
Representative Bobby Rush on voting rights on September 13th. And so we 
really look forward to their full engagement this weekend.
    I'm really pleased that this briefing on ``Race, Rights and 
Politics: Black and Minority Populations in Europe'' really gets the 
traction that it needs. We're doing something beyond just, you know, 
Africans of the diaspora for a week or for a year or 10-year period. 
We're trying to build the relationship that is going to continue, 
because our challenges and our assets are the same. We have challenges 
with the police, with political inclusion, with lack of recognition of 
our gifts and talents and the contributions that we make in building 
our countries to be the best they can be.
    And so like all politicians, I talk too long. So I will yield back 
to you, honorable Munyama.
    Mr. Vaiya. Thank you very much----
    Ms. Moore. I'm sorry. [Laughter.]
    Mr. Vaiya. Thank you very much, Congresswoman Moore. I think some 
of the points you make about some of the issues in the U.S. and in 
Europe--we face a lot of overlapping issues. And I think more so than 
now any time before, we see that those issues are really coming to the 
forefront and that black and minority populations, both in the U.S. and 
Europe, are facing similar problems, whether it's political rhetoric to 
issues around criminal justice to representation. And so it's good to 
bring politicians and policymakers from Europe to have these 
discussions. So thank you very much for always supporting us in that 
work.
    Maybe I can now move on to Aminata Toure, who is a member of 
Parliament in the northern regional parliament in Germany. And so 
Germany's an interesting case because, until so long after the 
Holocaust, we really saw a strong resistance to the far right and to 
populist parties. And then suddenly in the last few years we see the 
rise of the AfD, the Alternativ fur Deutschland, which is a far-right 
populist party. We see that in the last general election they increased 
their vote share and entered the Parliament. And we see that they're 
changing the political discourse that both Social Democrats and 
Christian Democrats are now following. And we see a toughening in 
political rhetoric from the middle who have now shifted to the right in 
Germany. And we see that since, let's say, this great intake in 2015 
when Angela Merkel opened the borders, as some critics would say, we 
see a lot of tensions in Germany--between, let's say, the majority and 
the minority population.
    And you're a spokesperson for the Greens on migration. So it would 
be interesting to hear what you think of the AfD and their influence on 
the political scene, especially as you're being a member of Parliament 
for the Greens, but also about the situation for migrants and refugees. 
Just this past two weekends we saw large protests. We saw Nazi salutes 
in the street. But we also saw something which was a bit more worrying, 
which was the reaction of certain policymakers, who normalized it, 
including the chairman of the intelligence agency who downplayed the 
incidents of far-right mobs. So maybe you can touch on those points. I 
know we're brief on time, but just some points.
    Ms. Toure. Yes. First of all, thank you for the invitation. I'm 
very happy and glad to be here. Yes, the situation in Germany is 
difficult because, for example, to describe the situation in the state 
where I live, in northern Germany, I was the first black woman ever in 
the Parliament. And, on the other hand [applause], it was the first 
time for the right-wing party to enter the Parliament at the same time. 
So you see, you have a very tense situation there. So every time I'm 
talking in the Parliament, I'm directly talking to them and telling 
them what they are not doing right. And so it's always very tense in 
this Parliament.
    And as you mentioned, 2 weeks ago a person was killed by two 
refugees in Chemnitz, in eastern Germany. And so this happened. And the 
right-wing parties and neo-Nazis used this situation to go on the 
streets and to follow people who look different, or look not white, 
actually. And so they went out on the streets and were following them. 
And there were a lot of people going on the streets on the other hand--
for example, myself and colleagues from Schleswig-Holstein--we were 
going there to demonstrate for the rights of migrants and minorities 
because the situation was very difficult. And we are talking right now 
in Germany--in the whole of Germany about this situation, that on the 
one hand you had 4,000 people demonstrating against right-wing parties 
and Nazis, and on the other hand you had 4,000 neo-Nazis saying that 
people who look like me or have a migration background should leave the 
country.
    So this is a discussion we're having right now. And you see at this 
moment that we definitely need to talk about where are minorities and 
people with a migration background standing in our society, in Germany? 
And this is a difficult decision we are having. And if you look at the 
political situation in Germany, you only have, for example, six people 
who are black and are members of parliaments, for example, in the whole 
of Germany. And we have 82 million people living there. And if you look 
at the number of people who have a migration background, you see that 
we have 23 percent of people who have migration background. But they 
are not represented in the politics or are not policymakers.
    So we have a long way to go, definitely. And I realize--I'm a 
member of the Parliament since 1 year. Last year we had elections 
there. And I realized that I have to travel all over Germany, because 
many organizations who are working with migrants realized, oh, there is 
a black person being a policymaking person or a politician, and I have 
to go there. And I want to go there, because I see we don't have enough 
role models in Germany. And you don't have representation as much as 
needed. And so I see there are a lot of things we have to do.
    And I'm very thankful and grateful to be here to see how it's 
working in the United States because for sure we, as German blacks, for 
example, we always look to the United States. And we see that here 
people are working together, the Black Caucus. These are institutions 
we look at and we're very happy to see that this is working here. And 
we need something like this in Europe, in Germany as well. So I was 
very happy to attend the PAD in May, where I met many of you, because 
it's empowering you to continue what you're doing and that you're not 
alone in this way. Yes. [Applause.]
    Mr. Vaiya. Thank you very much, Aminata. I think it's very 
important when you talk about the empowerment and coming together--I 
think that's one of the objectives we had in the European Parliament 
when we organized this first People of African Descent Week. But I 
think also the importance of the Congressional Black Caucus, the 
Congressional Hispanic Caucus, which I think is also happening this 
week, is it brings together minority policymakers from different groups 
to talk about issues that sometimes overlap. And there is also the 
issue of demographics.
    What was interesting about the case in Germany--for those of you 
who don't know--in the first case where two refugees had stabbed or 
murdered an individual, it was kind of ironic because the victim was 
actually a half-Cuban half-German anti-racist. And it was ironic that 
when this mob rule went out they were targeting anyone who was foreign. 
And I read somewhere that his friends were saying, well actually, if he 
was out on the streets the mob rule would have probably attacked him. 
So it's a very ironic situation that they're using the death of a half-
Cuban half-German man to go and attack vulnerable communities and 
migrants. So thank you for bringing up those issues.
    Our final speaker on this panel is Clive Lewis, who's a member of 
Parliament in the U.K. for the British Labour Party. Clive, you use to 
serve on the front bench----
    Mr. Lewis. Still do.
    Mr. Vaiya. You still do? Not in the Shadow Cabinet. He resigned 
from the Shadow Cabinet over the Labour Party's Brexit policy. And so 
maybe a few questions for you on the situation in the U.K., but I think 
a lot of people would be interested to hear about the impact of Brexit 
on black and minority populations. What does that say for the U.K.? A 
country that always prided itself on being an outward-looking country 
but has sort of taking an inward-looking step. And what does that say? 
We see that after the Brexit referendum we saw attacks go up against 
migrants, against people from black and minority populations. So how do 
you assess the situation? And what impact do you think Brexit has had 
on that? Has Brexit had an impact on that?
    Mr. Lewis. Well, thank you very much. It's a pleasure to be here 
this morning. Well, first of all, I come from a city called Norwich. 
I'm one of two MPs. It's called the fine city of Norwich. If you ever 
have a chance to come and visit, please do. Bit of a plug there. And 
I'm also the first black MP to represent that city. And it's a city 
which is overwhelmingly a white city. It's only in the past, I think, 
decade that it's been connected by a major road to another city.
    I think it's the last one in Western Europe that is in that 
situation. And so it's been very isolated. It's a medieval city. But 
it's a fantastic place. I'm very proud to represent it and very proud 
to have been chosen by my constituents to be in Parliament on their 
behalf.
    Look, Brexit is--well, for approximately half the population, 
Brexit is a curse, where you say, you know, a thousand Brexits on your 
head. For the other half of the population, Brexit is a blessing--may a 
thousand Brexits be upon your head. So, ultimately it depends which 
side of that--approximate side of the population you talk to. It's 
still an ongoing, unfolding situation. It's not over yet. I'm someone 
who understands the way that the referendum works. That's how democracy 
works. But democracy doesn't just then stop at one referendum. There's 
an ongoing process and we'll see what happens.
    The vast majority of black people in the United Kingdom, according 
to the statistics--and they're not overtly clear--but it looked very 
much before the campaign that, the vast majority of black people were 
voting for remain. There was a group--one group in particular which we 
think may have been more leave, which was the South Asian community. 
And the reason for that is perhaps because this whole concept of 
European identity isn't something that washed with them. They were a 
group that particularly identified with so-called British values. And I 
think that was something that they identified with in terms of the 
leave campaign. But nonetheless, the vast majority of black people--
black and ethnic minority people in the United Kingdom have been 
staunchly remain.
    And the impact on black people--on black and minority communities 
in the U.K. after Brexit has been quite stark. We know that the number 
of attacks that occurred--race hates and attacks on U.K. citizens after 
Brexit--shot up by 20 to 30 percent, sometimes higher in different 
parts of the country. So we're quite clear that there has been a 
backlash, partly because one of the main reasons why they--the leave 
campaign was able to achieve success in the referendum was by basically 
what you would call playing the race cards. The pressures--so-called 
pressures of immigration and stoking up that fear of xenophobia has had 
knock-on effects on the black community.
    And they've done that. They've achieved in part their ability to be 
able to push the U.K. on to the brink of leaving the European Union in 
part because of that. Now, it wasn't the only reason why people voted 
to leave, but it was an important reason. But we can already see 
there's been a shift in the U.K. as the economic implications of Brexit 
now become clear. And increasingly, if not the majority of people in 
the U.K., according to the latest research, say that actually they 
shifted and that the economy is more important than dealing with what's 
called freedom of movement within the European Union. So I think when 
the crunch comes, people understand that actually the message that 
migrant communities, black communities--and unfortunately, the two are 
very different but they get along together--but these two different 
communities contribute so much to our country.
    I think for the future, in terms of where the United Kingdom goes--
look, Theresa May is having a very, very hard time as regards to being 
able to sell this to Parliament. I'm not sure she's going to be able to 
do it. I'm not sure she's going to be Prime Minister by the end of the 
next 6 months. And that prediction could come home to bite me on the 
backside, but I don't think she will be. I don't think the numbers are 
there. However, what I will say is when you consider the situation that 
many black and minority ethnic people find themselves in the United 
Kingdom, because of structural racism, they already struggle in terms 
of universal access.
    For example, we know that they're 21 times more likely to have 
their applications called in. We know they're eight times more likely 
to be stopped and searched. We know they have the worst housing. We 
know that they have the worst opportunities when it comes to the jobs 
market. So if leaving the European Union is going to be the economic 
disaster most economists say it is, it will be black people who 
disproportionately suffer within that. And I think that's one of the 
reasons why so many black people--black and minority ethnic people 
within the United Kingdom are quite clear that Brexit is bad for them, 
not just in terms of the xenophobia and racism that has been ratcheted 
up, but also in terms of the economic impact on them. So it's a lose-
lose for our black and ethnic minority communities.
    Mr. Vaiya. Thank you very much, Clive. A bit of a bleak outlook for 
black and minority communities within the U.K., but, I mean, there have 
been some positives in the U.K. I mean in terms of political 
representation. We'll come to our second panel where we have Simon 
Woolley. But there's been a lot of work around increasing political 
representation of black and minority members of Parliament. I think in 
Europe we have the highest share of black and minority population 
represented in Parliament. So I think there are some good things. To 
her credit, Prime Minister May did carry out a race audit which looked 
at the impact for different minority communities. And we have Nero, 
who's a Special Advisor to Prime Minister May to talk about that in the 
next panel.
    So there are problems in the U.K., I fully agree. I think but there 
are also some positive things that we have to look in the U.K. in 
comparison to our brothers and sisters in other European member states. 
And also in the European Parliament, where we only have around 20 black 
or ethnic minority parliamentarians out of 752. And we have around 
about 55 to 60 belonging to parties that are openly neo-Nazi and 
racist. So I mean we definitely see this imbalance in representation 
across Europe.
    I want to open the floor up to some questions from the audience. I 
think we can group maybe three questions together. And the mic is there 
for people who want to take the floor. If you could introduce yourself 
when you ask the question. Do we have any questions?
    Ms. Moore. I had a question. I really appreciated this panel. And I 
guess what I would ask of the honorable Clive Lewis is whether or not 
you think--and I've asked this before, I don't know--do you think 
there's a chance of some reconsideration on Brexit. You say, we'll wait 
and see what happens. So that was a cliffhanger for me. [Laughter.] 
Finish that thought. Close the loop.
    Mr. Lewis. Yes. I do. I'll explain why. What's happened? We've seen 
a shift in the polling numbers of people who now understand that the 
debate that took place in the United Kingdom during the referendum, one 
of the key things that came back from vast swaths of the population 
was: We don't know who to believe. We don't know what to do. From a 
large number of people. And the level of debate, I think, was very 
poor. I think many commentators at the time and after believed that the 
level of debate was very poor. It was also ratcheted up in quite an 
appalling way by some of the right wing--Nigel Farage and others in our 
country. He's a good friend of President Trump. That should tell you 
what you need to know about Mr. Farage.
    Ultimately, what we're now seeing in the United Kingdom is the 
debate that should have happened, the referendum now happening over the 
intervening 2 years since we triggered Article 50, which is the 
mechanism by which we leave the EU. Now, it was designed in such a way 
that no rational country would ever want to leave, because it is such a 
short time scale that no rational country would want to do it. We did 
it. We triggered Article 50, which is why I resigned. But we triggered 
it, and now the clock is ticking and it's running out.
    And what you're now seeing is that people--you've got car 
manufacturers just yesterday who said--Jaguar, others--who've said as 
things are standing at the moment, we are looking at tens of thousands 
of job losses in manufacturing in the U.K. The CBI, the very 
organizations that have historically and traditionally supported the 
Conservative Party are now saying, What the hell are you doing?
    And so increasingly, the economic establishment of the United 
Kingdom is beginning to lose patience with this brinkmanship. And I 
think the public are beginning to understand that.
    The bank of the government, the Bank of England, has been quite 
stark in what he's been saying. Even our own Chancellor of the 
Exchequer is now--you know, came under fire for kind of beginning to 
prepare the treasury and the government for what looked like quite 
severe drops in national income, given a hard Brexit, or a Brexit as 
was described by Theresa May in the exchequers plan.
    So ultimately, I think if Theresa May doesn't have the numbers in 
Parliament, which we know she doesn't, her exchequers plan is probably 
dead in the water as things stand, because the core of her MPs, the 
hard Brexiteers want a hard Brexit. They don't want a soft Brexit. And 
on the other side of that, you've got an increasing number of members 
of Parliament who want to remain in the European Union. And she's 
caught in the middle. And I don't think she has the numbers. And that 
means that there is now increasing pressure on all of the political 
parties, including mine, for a second referendum. Whether that happens 
or not, I'm unclear.
    But the reason I said it's likely to be a general election is 
because she doesn't have the numbers, and if she can't get the actual 
agreement through Parliament, then we have a constitutional crisis in 
the United Kingdom, which many people feel can only be resolved by 
dissolving Parliament and calling a general election. So who knows? 
Then it's open. It's a kind of open story there. And what could happen? 
You could have a Labour government. And then we don't know what would 
happen from there, because they have a somewhat different position on 
Brexit--Brexit nonetheless, but for a much softer Brexit. But it 
remains to be seen what happens then. So it's possible we could yet 
come back from the brink.
    Mr. Vaiya. Thank you very much, Clive. I think we have a question 
here. If you can introduce yourself as well, please.
    Questioner. Hello. I am Demetrius Brisco [sp]. I'm an intern for 
Congressman Conor Lamb's office.
    I'd like to thank you all for coming here today. And I'd like to 
thank Congresswoman Moore for having everyone here. It's very 
inspirational for me, a person who wants to grow up one day and run for 
Congress. I really thank you for having this panel here. My question 
is, how can African Americans here in the United States be aware of the 
problems facing African Europeans or African British folk to understand 
the problems that you're facing and how can we help to end those 
issues--not just in Europe, but around the world?
    Thank you.
    Mr. Vaiya. Do we have any other questions?
    Questioner. My name is Wyatt Red [sp]. I'm a journalism grad 
student at American University.
    Mr. Lewis talked about the role of racism in Brexit. And I'd like 
to hear from some of the other representatives from other European 
countries about what role they think racism might have played in Brexit 
and the implications it may have for their own countries.
    Thank you.
    Mr. Vaiya. Thank you very much. And a final question.
    Questioner. Hi. Thank you, again, for all of you coming today.
    I'd like to hear more about the EU's decision to punish Hungary for 
the refugee situation in that country.
    Thank you.
    Mr. Vaiya. Thank you very much. So the first question, how can 
African American minority populations help European counterparts? The 
second question on the impact of racism--the role racism played in 
Brexit. And a third question, probably for me and Olivio, Article 7, 
and the European Parliament to trigger Article 7 against Hungary. We 
can probably start with the third question first because we can quickly 
explain exactly what happened.
    Mr. Kocsis-Cake. Thank you. Yes, there is a report made by Judith 
Sargentini which focused on Hungary, rule of law and a lot of things, 
but the migration issue as well. Yes, when we talk about minorities we 
shall not avoid that issue of migration. In Hungary, it's a really hard 
issue. When was the migration crisis in 2015 or prime minister who won 
the third election in row in this year with supermajority, don't 
hesitated to use this tragedy for--to campaign. And the last time he 
won this--won the election because of the migration crisis, he made a--
he ran a super-focused, excellently disciplined campaign. One simple 
message, that a vote for Orban is remaining Hungary, Hungarian. A vote 
for other opposition candidate means opening the floodgates to 
migration from the Middle East and Africa. So it was a really hard 
fearmongering campaign. And I hope this report, which accepted by the 
European Parliament, could cause Orban to rethink their policy on 
migration.
    And there was another question of who can help African-origins 
people in Europe? I think the U.S. has to support democratic 
institutions in Europe. That is really important. Liberal rights and 
freedom of press. And that's the most important thing to do.
    Mr. Vaiya. Thank you, Olivio. I think for some people in the room 
who aren't familiar with Article 7 and what exactly happened, the 
European Union can trigger Article 7, which is a loss of certain rights 
that a EU member state gets at council, which is when the 28 member 
states come together. And the European Parliament today in a landmark 
report, the first time ever, passed a report of Judith Sargentini that 
we actually contributed to, which actually calls on the European 
Commission and European Council to trigger Article 7. Article 7 can 
lead to the removal of voting rights of a particular member state. But 
what's very important about what happened today is the fact that Prime 
Minister Orban was at the European Parliament yesterday.
    And for the fact that for the first time in this particular report 
you needed two-thirds majority. So it's not just the left of the 
Parliament, but you needed the Christian Democrats, some of the other 
parties, I think some members of even the U.K. Conservative Party to 
support this resolution. And I think it's a very strong signal of the 
European Union and of the European Parliament to show that they are 
worried about Hungary and they are worried about the implications of 
some of the reforms Viktor Orban's doing, but they're also the impact 
and how the reforms in Hungary are now moving to other EU member 
states. We see this in Poland as well. So I think it's very important 
just to explain what Article 7 was.
    Maybe I can go to Aminata. Maybe you want to answer some of the 
questions.
    Ms. Toure. Yes. I'd like to say something to the question: How can 
Afro American people help European black people. And when I was writing 
my bachelor's thesis, I was writing about the situation of black women 
in Germany. And I read there that, for example, Audre Lorde went to 
Germany and worked together with Maya Ayim, a German--an Afro German 
person, to work together and to ameliorate the situation of black 
people in Germany.
    And I think exactly situations like these are important, to work 
together and help because, as I said when I was talking before, it's 
important that we have conferences like this, for example, the Black 
Caucus conference, where we are allowed, or we can come and see how you 
working here, and how it can strengthen our work as well. And so I 
think as well, the PAD week in Brussels was also important for me, for 
example, to learn how other African descendants work in politics and to 
bring it to Germany.
    Because most of the time, especially when you're the only black 
person in politics, sitting there most of the time surrounded by white 
men, it's always a bit difficult to see what you're fighting for or how 
the way can go. So it's important to talk to others who made the same 
experience and to learn from it and to try to do the same thing in your 
country. And so I think this is important.
    Dr. Munyama. Yes. You know, as far as the help we can send, that is 
African Americans assisting what is happening in Europe, this is one of 
the best examples of what is happening, what Congresswoman Moore is 
doing, what Congressman Hastings is doing, and Lee as well. This is a 
very important role that they are doing to help people of African 
descent in European countries. And of course, we're looking forward to 
such meetings like these conferences, both in Europe and in America. 
But, of course, it's a light to the good relationship between people of 
African descent in Europe and people of African descent in the United 
States of America.
    Inasfar as the question on the role of racism in Brexit--because 
actually I'm preparing a report on the implications of Brexit on 
migration today in the Council of Europe, and I'm the rapporteur for 
that actual report--and I realized that the issues which were raised, 
among which Clive has mentioned, was the issue of people living in the 
United Kingdom without knowing the language, people who don't know the 
language in the United Kingdom and they come and work, especially from 
our countries, Poland, Hungary, Romania, Bulgaria, and so forth. So it 
was one of those reasons why actually British people who thought 
probably they are being deprived of their labor capabilities or the 
possibilities to work, they decided, No, we have to vote against being 
in the European Union.
    So it's not only an issue of racism, as such, but it's also an 
issue of language. We're talking about whites coming from other 
European countries who couldn't speak the language. Then they were 
actually--I mean, the target. Yes, I was watching one of the BBC 4 
programs showing a Polish man overusing the benefits in the United 
Kingdom, and as an example, to be able to leave Brexit. But the other 
thing also we realized is that Britain was not really very attached, 
married to the European Union. You would find that most of the European 
Union countries, their flags, there are two, right? You have the 
national flag and the European Union flag. But it was not very symbolic 
in most of the British places where you could go. You could only see 
the Union Jack alone, not with the European Union one. So those are 
some of the things I have observed with the first stages of the report 
that I'm writing on the implications of Brexit on migration.
    Thank you.
    Mr. Lewis. So I'll address the issue of things that we can do to 
work closer with people of the African diaspora, black and ethnic 
minority communities across Europe, in particular the U.K. and the U.S. 
Of course, events like this, dialog such as this is helpful. But I also 
think understanding this--particularly with the United Kingdom and the 
United States, that the issues that affect African Americans in 
particular and black people in the United Kingdom come from pretty much 
the same place, which is structural racism, the justifying ideology of 
slavery, of colonialism. Understanding this--and it's still quite a 
novel idea and concept to even many of my colleagues in my own party 
that this is something that's real--concepts of cultural appropriation.
    There was a bit of a hoo-ha in my own country over a famous white 
chef who decided to do something called ``jerk rice,'' which doesn't 
exist as an actual food. But it became a kind of big issue of something 
called cultural appropriation, and it caused a complete storm on our 
social media, and so on and so forth. And you can see the level of 
ignorance of many people about these kind of quite basic concepts. So 
understanding that we have very similar issues in both countries, and 
also that structural racism also spreads over to Europe. I would say in 
Central Europe and Eastern Europe that often manifests itself more 
historically as a fear of Islam, because obviously the Islamic empire 
back in the 16th century almost overran--and 15th century--almost 
overran parts. And there's a long, visceral fear of Islamic 
expansionism, which kind of interconnects with and complicates some of 
the issues in Central and Eastern Europe.
    But the other thing I would say is understanding that one of the 
things which I think unites us all is whether we're talking about the 
rise of the far right in Europe, whether we're talking about the rise 
of Donald Trump and right-wing populism in the U.S., or whether we're 
talking about Brexit, these are symptoms. These are symptoms of a 
number of other factors, such as 40 years of neoliberal economic 
policies which have driven inequality within European and Western 
economies to an extent where it's now coming across.
    It's about climate change and the pressures of that. Again, with 
climate change we know that it will be predominantly black people who 
bear the brunt, and are already bearing the brunt, of climate change. 
Colonialism too in some ways. The irony that, our industrial 
revolutions in Europe were fueled by slavery and colonialism, and that 
every industrialization process now is driving climate change, first, 
in those countries that were pillaged and plundered first of all, you 
couldn't make it up. And obviously in terms of technology and the 
fourth industrial revolution. All these pressures are combining, I 
think, to make for potentially a very dangerous world, of which black 
people and scapegoating of minorities could well be a very, very 
blatant part of that. But there's also the opportunity for very many 
positive things to come of that.
    And the last thing I will say is the issue of class. You know, I'm 
a socialist. Class is a big factor in this. And also I find the nuances 
of race within those class struggles. I also understand that there is a 
fight going on at the moment between the 99 percent and the 1 percent--
those who own the vast majority of wealth and power in this world. And 
you're on the field. You don't get a choice in this. You're either part 
of the 99 percent or you're part of the 1 percent. And you have to pick 
a side. And ultimately, I think the struggle of black people and black 
and minority ethnic people in my country and across Europe is very much 
related and connected to that class struggle.
    Mr. Vaiya. Thank you very much, Clive. Thank you to all the 
panelists on this first panel. I think it's been a very interesting 
discussion, to talk about the different EU member states, but also 
about the impacts of Brexit and other issues on black and minority 
populations in Europe.
    If I can now ask my second panel to come to the front. In the 
second panel we want to talk more about possible solutions and talk 
less about the situation. And we're going to use the example of the 
United Kingdom and the government's race audit. To her credit, the 
Prime Minister May, when she first became Prime Minister made a speech 
about protecting minority populations in the United Kingdom. And one of 
the things she committed to was a U.K. race audit. I think it's the 
first-ever race audit anywhere in Europe or in the world. And it's a 
very impressive piece of work. You can access the information on the 
government's website also. \1\
---------------------------------------------------------------------------
\1\  https://www.gov.uk/government/publications/race-disparity-audit
---------------------------------------------------------------------------
    But we luckily have Nero Ughwujabo and Simon Woolley to talk about 
the U.K. Race
    Disparity Audit. Nero is a special advisor to Prime Minister May 
and is responsible in Downing Street for the race audit. And Simon is 
the chair of the task force of the race audit. And Simon is also the 
director of Operation Black Vote, which aims to energize and bring 
together black and minority policymakers and emerging policymakers to 
the Parliament. A lot of the good work in terms of representation in 
the U.K. Parliament of black and minority population has been done 
thanks to Simon's work. I think Clive was also one of the intakes of 
Simon's mentorship program, if I'm correct. So Simon's been doing a lot 
of excellent work.
    But I think maybe we can start with Nero. And we also have to give 
credit to the Conservative Party. There are issues in every political 
party, but even in terms of political representation the Conservative 
Party has less than Labour but, for a Christian Democrat center-right 
party, we do see progress. We do see black and minority population 
achieving positions within the party. Right now in the Cabinet, we have 
Sajid Javid, who is holding one of the great offices of state. In the 
previous government of David Cameron, we saw Baroness Warsi. So we do 
see good representation in the party. But we also see this commitment 
of the Prime Minister and of the party in the form of the race audit.
    So maybe, Nero, you can give some background on what is the Race 
Disparity Audit, why the Prime Minister decided to commit herself--and 
the government and all the departments--for pushing the Race Disparity 
Audit. And an interesting one maybe here also, why it's relevant for a 
conservative Prime Minister to do this. A lot of people will have 
doubts, and have had doubts, and have accused the Conservative Party at 
times of being discriminatory or not a safe space for black and 
minority populations. So why is it that that the Conservative Prime 
Minister decided to do this Race Disparity Audit. And we should give 
Nero credit for the work he's doing in Downing Street. I mean, to be 
there, working directly with the Prime Minister and advising ministers 
on how to implement some of the action points of the Race Disparity 
Audit, is very impressive work. That's something that we should bear in 
mind. So, Nero.
    Mr. Ughwujabo. Great. So thank you all very much. And I must say 
how delighted I am to be here. It's fantastic to be here, and to see 
the cooperation of people of African descent across Europe as well. I 
also participated in PAD Week and, again, found that incredibly useful. 
Just to say, my actual title is Special Advisor to the Prime Minister 
on Social Justice, Young People, and Opportunities. So I lead across 
those range of areas. Also, I work quite closely on a civil society 
strategy, as well as the integration strategy. But I'll talk 
specifically about this audit, because this portion of the discussion 
is about the way forward. And I see this very strongly as a potential 
example for other places to take forward as well, focusing on that area 
of data.
    When the Prime Minister first stepped on the street--so Downing 
Street, this was in July--she talked about tackling the burning 
injustices. It wasn't just about race equality. It was about a range of 
other injustices that you see in the society. And she wanted to make it 
her personal mission to focus on addressing race equality--addressing 
the burning injustices. And in August 2016, she launched this idea of 
having an audit of all public services to look at what the experience 
is for black and minority ethnic communities, to look at whether there 
are disparities or not, where those disparities are, and exactly what 
we can begin to do about them.
    In October last year, the audit itself was actually launched. And 
as I said, this is an unprecedented audit. As Alfiaz has already 
introduced, there's nowhere else in the world where this has been done. 
So we do feel strongly that it's a good example for other countries to 
actually copy. That audit was launched in October last year, so we're 
actually approaching the first-year anniversary of this audit. What a 
lot of commentators said at the time was, okay, we know what some of 
these disparities are. We're quite familiar with some of these issues. 
So what exactly are you going to do about it? And during that October 
launch, the Prime Minister actually called on society as a whole, more 
specifically government, to explain or change. So this is the mantra, 
the call to action to all of us to look at these disparities and to 
look at what we can actually do to improve the experiences of people 
from different backgrounds in public services.
    And since that time, we've actually moved onto another core wish 
she made to her department specifically. That issue come up with bold 
and ambitious policy responses to what was found in the audit. And I 
can tell you that from the launch of the audit, there are a number of 
responses that we've actually put in place in government to respond to 
the challenges. At the time of the launch, MP David Lammy also launched 
his report, which was looking into the experiences of black communities 
in the criminal justice system. So that was rolled into the audit 
response in terms of making sure that there is a kind of a wholesale 
criminal justice system reform. And that is still ongoing.
    We launched a review of school exclusions because this was a 
particular issue in the audit, that young black men in particular are a 
number of times more likely to be excluded from school than others. And 
we wanted to make sure that we tackled that. That's likely to be 
reported by the end of this year. And, again, we will begin to see what 
policy responses we can put in place. At the launch of the audit is 
where we announced a project looking at hot spots--unemployment hot 
spots. So these are areas across the country where there's a high level 
of unemployment amongst ethnic minorities. And we wanted to do a focus 
project in those areas to help to tackle and alleviate the problem of 
unemployment.
    We also launched a significant review of mental health, and a 
number of interventions in that area to help improve the experience of 
black communities. And most recently, we announced 19 million pounds--a 
fund of 19 million pounds to look at tackling specifically youth 
unemployment. Again, this is a significant issue. And as you can see, 
the response in terms of the financial contribution is also a 
significant response. And we're in the process of designing exactly how 
that money is going to be used to tackle youth unemployment. And I can 
tell you that the model we're looking at is one that will be 
sustainable, so that this is not just a simple, quick intervention, and 
that maybe a few years down the line we'll go back to the same 
situation.
    We actually want to be able to respond in a significant and 
sustainable way. One of the things that I can say clearly from the U.K. 
perspective and from the government's perspective is that the Prime 
Minister is personally committed to this agenda. And as part of that 
explain or change mantra that she put forward, she also established an 
advisory group made up of members from the black and ethnic minority 
communities to help to hold government to account, and also to 
contribute to the solutions. And we're delighted to have Simon Woolley 
to chair that group. He, being an independent person working in the 
volunteer and community sector, can bring that independent voice to the 
work that we do.
    So there's a great deal of commitment. I can say there's a lot to 
learn from us. But part of being here is that there's a lot to learn 
from you and from other parts of Europe. And we'll be very keen to 
welcome you to the United Kingdom to see the audit for yourself and to 
learn from the interventions that we're putting in place.
    So thank you very much for listening.
    Mr. Vaiya. Thank you very much, Nero. Maybe you can later on share 
the actual website where the government has put all of the data, for 
those of you who are interested in it. \2\ It's a very comprehensive 
list of ambitions and responses. I was also aware that when the 
government rolled the race audit out, I think we have to also give 
credit here that, you know, it was a full rollout, from the prime 
minister herself to members of the Cabinet. And I mean, I think that 
showed just how much priority the government was giving to this 
particular Race Disparity Audit.
---------------------------------------------------------------------------
\2\  https://www.ethnicity-facts-figures.service.gov.uk/?utm--
source=rdareport
---------------------------------------------------------------------------
    And I think one of the interesting things--and we've spoken about 
this in Downing Street, when we met--was actually when we think about 
the Race Disparity Audit, we really think of black and minority 
populations. But actually some of the biggest disparities that the Race 
Disparity Audit showed was for the Roma Gypsy community, but also for 
the white working class--young men who are white working class. And so 
actually it's a very impressive piece of work, because although many 
people had in mind black men or the ethnic populations, actually it 
showed the discrepancies and disparities for other groups.
    And they can also help us when we're trying to put policy 
recommendations in place. It can be an easy sell when you're saying 
that it's not just for particular minority communities but, you know, 
actually, the benefits of such a Race Disparity Audit are first of all 
to show us the data, but second of all the responses actually benefit 
other groups, not just the black and minority groups.
    So thank you very much, Nero.
    Now, Simon is chairing the advisory group of the Race Disparity 
Audit. Amongst other members, you have members from business, and 
members from civil society. I have already introduced Simon, but just 
to say that, we have one of the most respected members of the black and 
minority community in the U.K., who has not just been at the forefront 
of pushing black and empowering black communities, but also others. I 
mean, from my own community, the South Asian, but Indian, and Muslim. 
Just last week you and Clive were part of this Muslim-Jewish-Black 
alliance to welcome the decision of Jeremy Corbyn to adopt--and the 
Labour Party--to adopt the definition of anti-Semitism.
    Simon is really one of those people. I'm really happy that Simon is 
the chair of the Race Disparity Audit because Simon really looks not 
just at his community but at intersections of different communities 
meeting together and having an approach that benefits all communities. 
And I think sometimes when we do this kind of work we sometimes get 
stuck in our own silos, you know? We sometimes become very tribal about 
our own community. But the work Simon has done throughout his career is 
a testament to see the representation in the Parliament, not only in 
black politicians but South Asian politicians and others. So, Simon, 
maybe you can talk about your role on the advisory group of the Race 
Disparity Audit.
    Mr. Woolley. Thank you. I wanted him to stop because I didn't want 
to get a swelled head.
    [Laughter.] Yes. But I'm an activist. I'm an activist fighting--I'm 
an activist fighting for social and racial justice. And I often see 
myself and my organization, Operation Black Vote, as disciples of Dr. 
Martin Luther King and Malcom X, and Reverend Jesse Jackson. We've been 
passed the baton and we're running with it.
    And what I like about coming to these events, and to the 
Congressional Black Caucus, because it reminds us about the global 
solidarity that we desperately need right now to, one, lay bare some of 
the challenges and the persistent inequalities. But to come together as 
brothers and sisters to find the solutions in a manner that's urgent. 
And as an activist, actually, I want to pay tribute to Dr. Mischa 
Thompson and Alfiaz, as a matter of fact, that bring us together, that 
bring us into this space to connect, to plot, to plan on a better--a 
better future. And as Alfiaz said, is that this family of activists 
covers the African diaspora, but also Latinos across the globe, and we 
know we've worked well with Maria Robles Meier, who's here, making that 
connection. And with the Asian communities in Europe.
    And we're stronger together. And now more than ever--I mean, what 
you're facing here in the USA is a parallel challenge to what we're 
facing in Europe. You know, when you consider--when you consider there 
are political parties in Hungary, in Germany, in Belgium, in Holland 
that's whole raison d'etre is to attack people that look like me and 
Alfiaz. And when they attack us, they may attack us politically, but 
they give a green light to the very vicious, nasty thugs to say, This 
is okay. And that's what we are confronting. And you know, in the last 
session--I know people spoke about Brexit and they're kind of 
justifying some of the reasons that people hate foreigners. For 
example, one of the panelists said that people felt that those come to 
the U.K. don't speak English, and they are taking our benefits.
    Nothing could be further from the truth. The majority of migrants 
that come to the U.K., as a matter of fact, speak excellent English. 
They just do. I mean, if I asked you--if I asked you honestly here how 
many--how many second languages do you speak--I don't want to embarrass 
you. [Laughter.] Right? But in Europe they make it--they make it their 
business. The other point too, of course, is the benefits. You know, 
those that are coming to the U.K., those that are coming to European 
countries from often war-torn and desperate places are young. They are 
energetic and vibrant. And they're not using social services. They're 
working from sun-up to way past sun-down, and often propping up 
societies. So that myth should be busted--busted.
    But, you know, yes, we talked about the negativity. Yes, we've 
talked about the challenge. But there is some good news in all of this. 
And we must recognize that. Central to this good news, and central to 
potentially, but dramatically, moving the race equality dial, closing 
those persistent inequality gaps is leadership. Leadership. When we had 
a conversation as activists on the street with PM Theresa May, to say 
we want you to lead from the top right across government to do a number 
of things. One, research the persistent inequalities in education, in 
health, in housing, in the police. Why is a lifetime chance of a young 
black man so different to a young white woman? Why? Because of the 
structural inequalities that see one less superior, inferior, to 
another. No other reason. Lay those inequalities bare. As Nero said, 
explain those inequalities or change, simple.
    Lay the inequalities bare, and then have a plan to close the gaps. 
Think about that for a second. That leadership, clarion call. And then, 
for that leader to call in all her ministers and say: Each and every 
one of you will have to lay the data bare and have a plan to close the 
gaps. So you've got the leader. You've got the ministers.
    And then you've got me and Nero. And myself and Nero--particularly 
myself because, you know, he works for the government. I don't so I can 
say what I want. [Laughter.] Right? But being given the mandate from 
the Prime Minister to, in effect, for her to say to me: Hold my 
ministers' feet close to the fire. Crudely speaking, keep your foot on 
their jugular. Don't let them get away with it. And push, push, push.
    My job then is twofold. One, to keep the foot on the jugular, in a 
nice way. [Laughter.] Now, this is good for you too, by the way. But 
also to take the community along too, because it has to be that link--
the heads of government, the ministers, the policymakers, the 
activists, and the community--because it is the community that will be 
directly affected by these policy changes. And I'll just give you one 
example on how this translated, because I know we're short for time.
    We spoke before about the great disparities in the education 
system. It's difficult for our communities to get to the top 
universities. When we get there, we can't get the same degrees, even 
though we've started at the same level playing field. When we have 
14,000 professors, only 70 look like me, disparities at every juncture. 
Nero said to me, call a meeting. Call a meeting with the vice 
chancellors. Bring them to Downing Street. When they get an invite to 
Downing Street, they come. We sat around the table with them all--the 
top universities, Oxford and Cambridge, and all them type.
    I tell you this, when these heads of the universities came into 
Downing Street one of them turned around to me and said: Simon, when I 
came into this building I came in with a flak jacket on and hard 
helmet. They came in prepared to be defensive, to be in a mode where 
they couldn't listen because they were defensive. But our approach was: 
This is about leadership. We're not going to attack you. We need to 
find out the persistent inequalities and, together, find solutions. 
They collectively had a sigh of relief. But the outcome was they were 
suggesting to government and to their fellow peers how they could 
dramatically close those gaps.
    Let me say--let me say this, this is a new way of doing politics. 
The politics of these buildings, the politics of Westminster, the 
politics of Hungary, or Poland, are adversarial. You go in to do 
battle. You can't see the light when you're doing battle like that. 
This politics is grown up, predicated on leadership, inclusive, with 
clear solutions. I want you to lobby--to lobby your Congressmen and 
women and senators and say: You want a new way of doing politics. 
Something like they're doing in the U.K. [Laughter, applause.]
    Mr. Vaiya. And more than best practice--very quickly, from my side, 
one question to both of you very quickly. How can we replicate this in 
other countries? What kind of enabling environment do we need where we 
can have--where we can do something like a Race Disparity Audit? In the 
U.K. we have a very different history, also a very different way of 
integrating and engaging with minority communities. But what would you 
recommend, Nero and Simon, for other countries where you don't have 
such a high black minority population, or you have a huge reluctance 
because of the political environment right now?
    Mr. Ughwujabo. Yes. I'll answer your question. But let me make my 
own statement first. [Laughs.] So there are a number of things I just 
wanted to touch on that I missed. One of them is that the website 
itself is Ethnicity Facts and Figures. So if you can have a look at 
that online, you will be able--if you can Google ``ethnicity facts and 
figures'' you can come to the website. 1A\3\ One of the key things 
about it is that it's a permanent resource for the government of the 
U.K. So any government from now on will have access to that data to use 
in shaping policy.
---------------------------------------------------------------------------
\3\  https://www.ethnicity-facts-figures.service.gov.uk/?utm--
source=rdareport
---------------------------------------------------------------------------
    And a key part of this project is about driving evidence-based 
policymaking, which I think is what Simon was referring to. And I think 
for other countries in Europe, that's really the focus--transparency, 
data, and evidence-based policymaking. If an audit--a similar audit is 
conducted anywhere, it's the role of government to focus on where the 
challenges are to do what they can to address those. And we have a Race 
Disparity Unit in government that's responsible for delivering the 
website and the project. So if any of the countries want to come and 
talk to them, we'd be happy to facilitate that.
    Thank you.
    Mr. Woolley. Okay. What should be the drivers for you to lobby your 
government? Well, it's simple. It should be in society's, in 
government's self-interest--self-interest--to do this. Unlock talent on 
your doorstep. It's in everyone's interest--it's in everyone's interest 
that you have--I have a mantra in the U.K. that I believe, black or 
white, there is potential talent in every street, in every city, in 
every part of the U.K. That's a starting point. And so how do we--how 
is that fulfilled? By having an honest appraisal of the institutions 
that either support that talent or hold it back. When you listen to 
Donald Trump, when you listen to most presidents, when you listen to 
most leaders they want their countries to be great, right? They want 
their countries to be successful.
    So you speak to their interests. Why are you leaving hundreds of 
thousands of people out of work, no hope, going either into criminality 
or, worse still, extremism? Because the system holds them back. Why not 
bring them into the family of our societies and get them to flourish? 
You've got to make--you've got to make the positive self-interest 
argument that drives this agenda, because if you are saying that this 
is morally the right thing, they often don't listen. If you're saying 
it's political correctness, they are definitely not listening. You've 
got to make it real to them. Show them the benefits of unlocking 
talent.
    Mr. Vaiya. Thank you very much, Simon. I think the issue of 
demographic changes--I think that's a whole different conversation--but 
also the fact that you see this all across Europe--that we wage 
constant political attacks against minority or black populations, when 
actually if we'd done the opposite and we'd brought them in we could 
actually solve a lot of the problems that we see in terms of the 
economy, in terms of social progress.
    But there seems to be a reluctance more because of political 
maneuvering and the political realities rather than politics by facts. 
And it's very important to stress that, you know, in the U.S. by 2042 
there will be no majority group. I think in Europe and many member 
states we see that--and I think Aminata said in Germany, 20-odd percent 
come from a migration background. And the trends are showing that's 
just going to continue to evolve in the future. So we might as well try 
to tackle these issues now, rather than waiting for when these issues 
then blow up into bigger problems.
    Before I come to the audience, we have about 20 minutes. And I also 
take up a lot of time. But maybe very quickly, we have two 
representatives of civil society. We have Jeff Klein from Each One 
Teach One, which is an organization based in Germany that works with 
black Germans. And we have Ali Khan from the Open Society Europe 
initiative--sorry--the Open Society Initiative for Europe, which has 
been working a lot on promoting the rights of different black and 
minority population. The OSF has been a key supporter of our work in 
the European Parliament, but also in terms of PAD Week and this 
delegation. So thank you very much. So maybe Jeff and Ali, 2 minutes 
each, on the role of civil society and the role of your organizations 
in this work.
    Thank you.
    Mr. Klein. Thank you so much. Ladies and gentlemen, it's a great 
honor to be speaking here today, and also to be part of this 
delegation. So I wanted to start off giving a little bit of a historic 
background, because I think it's important to understand the situation 
we are in right now. And there are two misconceptions--two general 
misconceptions that I'd like to address as well. The one misconception 
being that Germany did not take part in the colonialization of black 
people, their minds and their lands, which nothing could be further 
from the truth. And the second misconception is that black people have 
been--have just been around Germany for a very short amount of time, 
when in actuality black people or people of African descent have lived 
in Germany since the late 17th century.
    Enslaved Africans were first brought from West Africa to the ports 
of Hamburg as early as 1682. And 200 years later, during the Berlin 
Africa conference in 1884, Europeans powers met to basically negotiate 
their claims on Africa. And last, in 1908, German colonial authorities 
were responsible for the first genocide of the 20th century in what is 
today known as Namibia. So although there is a lack of specific data on 
African-descended populations in Germany, the estimates range between 
800,000 to 1 million. And however, the contribution of black people in 
Germany, as well as the long history of discrimination against people 
of African descent, they are virtually invisible in the German public 
sphere, and largely also to the German Government.
    However, the German Government has started to come around, so to 
speak. And to this end, EOTO, my organization, is the very first Afro-
diasporic organization in Germany that receives structural funding from 
the German Federal Government. And this is a fact that is both as 
exciting as it is shocking, in a way, especially given that we are 
right now in the midst of the International Decade for People of 
African Descent. And the German Government, along with many other 
governments in Europe, still have not come around to provide adequate 
funding for self-organizing black organizations. But fortunately, there 
are other donors, such as, for example, the Open Society Foundation, 
who have emerged as great allies and supporters.
    So given this context, we at Each One Teach One, we do our very 
best to provide services to black communities, but also to our allies 
that center around the well being of people of African descent, in 
Germany and in Europe, and empower those communities to make 
contributions to themselves, strengthen their access to knowledge, and 
also their visibility.
    Mr. Vaiya. Quickly go to Ali, and then maybe to Q&A. I'm really 
sorry, but we're really running out of time.
    Mr. Khan. Okay. Hi, everyone. My name is Ali Khan. I work for the 
Open Society Foundations. And specifically I work on the--what we call 
the anti-discrimination portfolio within Europe. The anti-
discrimination portfolio is basically a funding portfolio where we 
focus on the rights of black Europeans and Muslim Europeans. This has 
become very specific, and there is reason for this.
    And basically what I want to talk about and what I think is really 
important in the world of funding, and what we can change as 
grantmakers and funding organizations, is that traditionally even we as 
Open Society Foundations--which we call ourselves a social justice 
funder, a grassroots organization supporter--a lot of our funding ends 
up going to the big civil society organizations that work--you know, 
the Amnestys, the traditionally big, big organizations that actually 
already have quite a lot of money.
    So what I'm trying to do, and what my goal with this portfolio is, 
together with my colleagues, is that our funding goes to organizations 
that are minority led. So when it comes to--Each One Teach One is a 
great example of that. We--I think what we try--what I'm trying to say 
and what I think is a really important message is that this group--
minority groups in Europe don't need to be saved by the traditional 
NGOs and the big NGOs. But what we need is money--money going into 
those grassroots organizations, into those organizations who are led by 
people who are agents of change, but just never had the opportunity, 
because this is just unfortunately how the funding world works. And 
even within OSF, it is so much more difficult to fund an organization 
that is small, that is new, than it is to fund an organization that is 
established. And this is something that we are actively trying to 
change.
    Mr. Vaiya. Thank you very much, Ali and Jeff.
    We have some minutes, if we have any more questions? If you want to 
come here to the mic on the left. And then we can have final responses 
from members of the panel.
    Questioner. Hi. I'm Ben, an intern with Representative Steve 
Cohen's office.
    I had a question about the Race Disparity Audit and its 
replication. Is this something that the government is looking at doing 
when it does more wider-spread social reforms, such as--after Brexit, 
certainly a lot is going to change. And with the expansion of grammar 
schools, looking at educational exclusion. That seems like something 
that really, really could affect BAME communities in the U.K. And I was 
wondering what--if this is something that is going to be looked at 
again and again.
    Mr. Vaiya. Do you want to ask a question?
    Questioner. My name is Rosie Berman. I'm with the Tom Lantos Human 
Rights Commission.
    My question is for the civil society panel. I'm interested in 
learning more about the different black- and minority-led grassroots 
organizations that are operating across Europe.
    Mr. Vaiya. Thank you very much. And the final question?
    Questioner. Hi. Good morning. First of all, thank you all so much 
for coming here today. My name is Henry. I'm with Congressman Al 
Green's office.
    I want to ask this question as someone who studies international 
affairs. With all the great things, with all the great possibility that 
the European Union can do, and the member states of the EU can do to 
promote equality, we also have to face the fact that there is rising 
populism and far-right movements in Europe--the UKIP, the AfD, the PVV, 
these are just some easy examples. So what are the things that the 
European Union and European civil society should do in order to counter 
these acts, to build up a multicultural, more diverse society in 
Europe?
    Thank you.
    Mr. Vaiya. Thank you very much for the interesting questions. Do 
you have a final question?
    Questioner. Good morning. Nicolae Stefanuta, representing the 
European Parliament here in town.
    I just had a question for Mr. Ali Khan. I was wondering how you 
guys deal with the challenge that is obviously happening to your 
organization in Hungary and other places. You know, we're talking about 
mostly people of African American descent, but also the anti-Jewish 
rhetoric, Mr. Soros being personalized as evil incarnate, that is 
happening both in this country and both in the EU.
    Mr. Vaiya. Thank you very much. Just very quickly on the question 
of dealing with far-right or populist movements across Europe, I think 
one thing we have to recognize is that they're very different. The 
Steve Bannon plan to open an office in Brussels, there was a lot of 
worry amongst colleagues. But I think, we have to understand that they 
are very different movements in Europe. I mean, the Dutch far-right 
populist party is economically very, very similar to the left, but also 
socially liberal in terms of LBGTI rights, in terms of gender rights, 
often using those particular rights to attack--you know, to say that we 
should have worries about Muslim communities because they have an 
impact against Dutch LGBTI and Dutch women. Whereas in certain 
political parties in Hungary, in Italy, the far right is a traditional 
far-right and populist party. So I think that it's a very difficult 
response on how to respond--how to respond back to these movements 
because they are so different in the way they are structured but also 
in the outlook and their aims.
    Saying that, there are a few issues that they agree on and they 
work on. But I think one thing--one response--and I think we said it, 
both Simon and I, is that we need to see how we can avoid differences 
within particular minority communities. For me, it's a big concern from 
the European Parliament side that we see different levels of attention 
paid to certain communities than others, but also the fact that we see 
that some minority communities are actually supporting the far-right 
populist movement. I myself have said it to some of my friends in the 
Netherlands who happen to be gay, to say that if you look at gay men in 
the Netherlands, there's quite a few, actually, who voted for the likes 
of Geert Wilders. And I say that, where is the solidarity? Where is the 
solidarity between movements? And that's the good work that Ali Khan 
and OSF, but also the work that Jeff's organization is doing in 
Germany, where they're bringing these different communities together 
and looking at it from an intersectional approach. And I think that's 
something that we can do, or something that as policymakers we're 
trying to encourage.
    So that's my take on those questions. Maybe we start off with--
let's start off with Jeff, and then we come down.
    Mr. Klein. Okay. So traditionally black-led self-organizations in 
Germany have focused their work mainly on combating racism against 
black people, and this is something that we at Each One Teach One are 
also doing. But we've also shifted our focus more to black empowerment, 
and also what I like to refer to as decolonizing the mind. We have a 
very unique book and media archive with more than 6,000 books by 
African and Afro-diasporic authors. And with that, we try to really 
change the German curricula in terms of academia in order to make the 
perspectives and the ideas of black people part of the public 
consciousness. We do this, for example, with literature, festivals as 
well, writing workshops, or cultural events.
    One of the things that we also do is focus on youth and on youth 
empowerment. We do that through after-school support, ant-
discrimination counseling, and also in outreach activities. Last, what 
we do is engage in leadership and advocacy efforts to bring black 
perspectives to the consciousness. As people mentioned before, PAD Week 
is a prime example of this. Also, our contribution is here, as well as 
a network of black perspectives in academia that we will start in 
November. So these are just a couple of things that we do in order to 
bring forward black people and their perspectives in Germany.
    Mr. Khan. Yes, there were two questions, I think, that were 
somewhat addressed to me, and one directly addressed to me. The one on 
learning more about what European civil society organizations are 
doing--it's a lengthy conversation but I'd be happy to speak to you 
right after the panel to give you a bit more detail on that.
    And then the question on how OSF is dealing with--well, with the 
fact that we're not very liked in many countries. [Laughs.] Our office 
in Turkey has been closed down. Our office in Moscow was closed down. 
Or office in Budapest wasn't actually closed down, but there were laws 
that were introduced that basically made it impossible for us to 
operate, which led to the closure of the office in Budapest. 
Unfortunately, it happened just a few weeks ago. The fact that we are 
an organization with money puts us in a privileged position, as in that 
we moved the 160 people that were working in Budapest to the new office 
in Berlin, which--so we're basically dealing with it, depending on how 
things are going on and how we are being forced into having to change.
    It's something that I personally don't deal with that much, but I 
think we are very well aware that we find ourselves in a climate that 
the work that we do and the stances that we take on a lot of these 
issues have made us very, very unpopular across the world. And we're 
trying to see how we could do that differently. But I personally remain 
of the position that we shouldn't--we should stay strong and we should 
keep to our values and beliefs, and we should be outspoken, even if 
that means that we are at risk.
    Mr. Vaiya. Thank you very much, Ali.
    Nero, I'd give you the final word.
    Mr. Ughwujabo. Great. Thank you very much. So the question that you 
asked is a very important one because in reality if you do a one-off 
audit, that wouldn't consider the fact that people change, communities 
change, and things tend to move on. This audit, as I said, is a 
permanent resource. That's the Prime Minister's announcement and that's 
what it will be. At the time of launching the audit, we had 250 
measures that we looked at for that launch period--measures as in 
looking at, say, the number of young people achieving 5 As to Cs in 
GCSEs.
    That an educational outcome. But since the audit has been launched, 
it's been constantly updated. So there's a significant number of new 
measures that have been published there.
    And the updating, we're not doing it in terms of periodic process 
of--so, maybe annually. They've been updated as new data come forward. 
And we're also designing processes that make it easier for government 
departments and those who are holding government data to publish with 
relative ease. So that process is ongoing. The data is there for 
everyone to access. And we will continue to update it.
    One of the wonderful things about the future, in that sense, is 
that the opportunity will be there to be able to compare previous 
years, previous data updates, and to see whether we're actually doing 
what we set out to do, which is to close those gaps.
    Mr. Vaiya. Thank you very much Nero. My final thank you is to you 
for listening to and engaging with the questions and listening to us 
and listening to our experiences in Europe. And I think it's important 
to take away that although times are bleak, there are some positives. 
But also, the importance of the transatlantic relationship, not only in 
terms of the political level, but also between civil society and 
communities. I mean, there are a lot of lessons that we can learn from 
civil society and communities in America, and likewise in Europe.
    My final thank you goes to Dr. Mischa Thompson. I first met Dr. 
Mischa Thompson maybe about 2 years ago, or 3 years ago now. And since 
then, our friendship and our work relationship has grown very strong. 
But the one thing, when everyone keeps on asking the question, what can 
people in the United States do? I mean, if you tried to replicate 
Mischa Thompson 1,000 times--[laughter]--we could do with a thousand 
Mischas, because Mischa's really been at the forefront of pushing, you 
know, us to do this work in Europe. And, I mean, just the transatlantic 
minority political leadership conference that Mischa and I co-
organized--and when we bring policymakers together, is one of Mischa's 
ideas, along with other things. So, I mean, a big thank you to Dr. 
Mischa Thompson, to the U.S. Helsinki Commission, to Izmira, and to all 
of you for listening and engaging.
    Thank you very much. [Applause].
    [Whereupon, at 11:48 a.m., the briefing ended.]

                                <all>





  

            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe (OSCE).

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
